Becker Gallagher
Briefs

and

Donna J. Wolf, J.D.
Julie A. Kershner, J.D.

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 40 copies and
1 unbound copy of the foregoing Redacted Petition for
Writ of Certiorari in John Doe, 1 and John Doe, 2 v.
Federal Election Commission and an original and ten
copies of the Sealed Petition for Writ of Certiorari,
were sent via Next Day Service to the U.S. Supreme
Court, and 3 copies were sent via Next Day Service,
and e-mail to the following parties listed below, this
16th day of September, 2019:
Noel Francisco
Solicitor General of the United States
Room 5616
DEPARTMENT OF JUSTICE
950 Pennsylvania Ave., N.W.
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov
Counsel for Respondent
Paul D. Clement
Counsel of Record
Erin E. Murphy
Andrew C. Lawrence
KIRKLAND & ELLIS LLP
1301 Pennsylvania Ave., NW
Washington, DC 20004
(202) 389-5000
p aul. cle ment@kirkland .com
erin. murp hy@kirkland. com
andre w. lawrence@kirkland.com
Counsel for Petitioners

Becker Gallagher Legal Publishing Incorporated
(800) 890.5001
www.beckergallagher.com

Franklin Square

8790 Governor’s Hill Drive
Suite 102

1300 I Street, NW, Suite 400E

Cincinnati, Ohio 45249

Washington, DC 20005

— f

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on September 16, 2019.

Donna J. Wqlf
-p)
Becker Gallagher Legarrublishing, Inc.
8790 Governor’s Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

) V> rpb 1 °]

Date:
X

LbC

Notary Public
[seal]

dli2Sll,Nt Pbr s

JULIE ANNE KERSHNER

1

* Notary Public, State of Ohio
} My Commission Expires
Februarv21.2023

